     OVERSIGHT OF
 DEPARTMENT OF JUSTICE
EXPENDITURES RELATED TO
  HURRICANE KATRINA

    U.S. Department of Justice
  Office of the Inspector General
           Audit Division

       Audit Report 06-11
         February 2006
MEMORANDUM FOR REGINA B. SCHOFIELD
               ASSISTANT ATTORNEY GENERAL
               OFFICE OF JUSTICE PROGRAMS



FROM:                 GLENN A. FINE
                      INSPECTOR GENERAL

SUBJECT:              Oversight of Department of Justice Expenditures
                      Related to Hurricane Katrina
                      Memorandum Audit Report


      The Dallas Regional Audit Office has completed a limited scope audit of
the Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA). The
objective of the audit was to determine if BJA implemented appropriate internal
controls and procedures for the Hurricane Katrina relief grants awarded in
September 2005.

       This audit was conducted in coordination with the President’s Council on
Integrity and Efficiency (PCIE) as part of its examination of relief efforts
provided by the federal government in the aftermath of Hurricanes Katrina and
Rita. As such, a copy of the report will be forwarded to the PCIE Homeland
Security Working Group, which is coordinating the Inspectors General review
of this important subject.


BACKGROUND

      BJA’s mission is to provide leadership and services in grant
administration and criminal justice policy development to support local, state,
and tribal justice strategies to achieve safer communities.

      Prior to Hurricane Katrina, BJA had awarded 29 Edward Byrne Memorial
Justice Assistance Grants (JAG) to state and local governments that were
subsequently affected by that hurricane. BJA had also received four
applications for new JAG grants from entities in Louisiana and Mississippi.
These grants and grant applications were unrelated to Hurricane Katrina. BJA
officials told the Office of the Inspector General (OIG) that after Hurricane
Katrina they began looking for additional funds that could be used to assist law
enforcement agencies in the affected areas and identified approximately
$5 million in unobligated funds. 1 A senior management official from BJA
stated that OJP’s Office of General Counsel reviewed JAG program
requirements and opined that the unobligated grant funds identified by BJA
could be used for Katrina disaster relief. BJA subsequently provided 29
supplemental JAG awards to the state and local governments that had existing
JAG grants prior to Hurricane Katrina and awarded 4 new grants to the state
and local governments that had submitted JAG grant applications before the
hurricane struck (see Attachment III). As a result, a total of 33 disaster relief
grants were awarded for $5,000,003 (see Attachment I).

      JAG funds are available to provide additional personnel, equipment,
supplies, contractual support, training, technical assistance, and information
systems for criminal justice, including any one or more of the following areas:
   •   law enforcement programs;
   •   prosecution and court programs;
   •   prevention and education programs;
   •   corrections and community corrections programs;
   •   drug treatment programs; and
   •   planning, evaluation, and technology improvement programs.


BJA’S AWARD PROCESS

      A BJA senior management official told the OIG that the 33 disaster relief
awards were made based on applications submitted by the state and local
governments prior to the hurricane. Because JAG grants do not require risk or
needs assessments, BJA personnel did not perform these assessments prior to
awarding the disaster relief grants.

       To expedite the award process, BJA personnel took electronic
information from the initial JAG applications and copied it into new
applications to be used for the Hurricane Katrina awards. A BJA senior
management official told the OIG that, in BJA’s judgment, any other approach
to the award process would have been impossible because the state and local

       1 The unobligated $5 million was from fiscal year 2005 Local Law Enforcement Block
Grant (LLEBG) funds. The Consolidated Appropriations Act of 2005 merged the LLEBG and
the Edward Byrne Memorial formula grant programs into JAG.


                                             2
governments within the impacted areas no longer had the necessary
infrastructure to submit an application through the regular process.
Additionally, the BJA senior management official told the OIG that BJA used
emergency declaration charts presented on the Federal Emergency
Management Agency’s website to determine which states or local governments
could be awarded disaster relief funds. The official said that BJA used a
straight population formula to calculate how the awards were allocated
because detailed data necessary to calculate a JAG distribution was not
available for all local governments affected by the disaster. 2

       According to the BJA official, if BJA had to reevaluate the allocation of
funds today, the distribution would be significantly different. He told the OIG
the original distribution was based on the data available at the time. He noted
that, based on data available 1 month later, it became apparent to BJA that a
greater need existed in some areas than others. However, this same official did
not offer any specifics on how BJA would have changed the allocation of grant
funds.


AUDIT METHODOLOGY AND RESULTS

      We conducted the audit in accordance with Government Auditing
Standards and included such tests of internal controls, procedures, and
documentation as were considered necessary to accomplish the audit objective.
In addition, we reviewed the September 30, 2005, memorandum issued by the
Controller, Office of Federal Financial Management, Office of Management and
Budget, which delineates nine actions that federal agencies may take to provide
administrative relief for grantees affected by Hurricanes Katrina and Rita. We
determined that we did not need to alter our planned audit procedures
because, at that time, the memorandum did not apply to the BJA grants
included in our audit.

       To determine if BJA followed existing internal control procedures in
awarding the 33 Hurricane Katrina disaster relief grants, we judgmentally
selected a sample of 17 grant awards, including the 5 highest-dollar grants,
that totaled $3,290,184 or 66 percent of the funds awarded (see Attachment II
for details).



        2 JAG grants are formula grants based generally on population and crime statistics.

“The JAG formula includes a state allocation consisting of a minimum base allocation with the
remaining amount determined on population and Part 1 violent crime statistics, and a direct
allocation to units of local government. Once the state allocation is calculated, 60 percent of
the funding is awarded to the state and 40 percent to eligible units of local government. State
allocations also have a variable pass through requirement to locals, calculated by the Bureau of
Justice Statistics from each state’s crime expenditures.”


                                               3
       We requested all grant files (including prior LLEBG grants) for the
grantees selected for review. We also asked BJA to identify grantees with holds
placed on grant funds. 3 We reviewed Financial Status Reports, monitoring and
site visit reports, and all correspondence in the files. Based on the results of
our review, we determined:

   •   BJA personnel told us that they believed 8 monitoring reports existed for
       the 17 grantees sampled. However, BJA could only provide monitoring
       reports for 6 of the grantees (see Attachment IV).
   •   Of the 17 grantees tested, 4 had not submitted the required Financial
       Status Reports. However, a hold had not been placed on either the initial
       JAG grant or the supplemental disaster relief grants for three Louisiana
       agencies – the St. Charles Parish Sheriff’s Office, St. Tammany Parish
       Sheriff’s Office, and the Lafourche Parish Sheriff’s Office. While a hold
       had been placed on the initial JAG award for the City of Moss Point,
       Mississippi, a hold had not been placed on the supplemental disaster
       relief award for this grantee.
   •   Although not in our sample, we determined that holds had been placed
       on the initial JAG awards to the Jefferson Davis Parish Sheriff’s Office,
       Louisiana, and Jones County, Mississippi, because these grantees had
       not submitted the required Financial Status Reports. However, holds
       had not been placed on the supplemental disaster relief grants for these
       two grantees.

       BJA officials stated that it was not necessary to place holds on the
supplemental disaster relief grants for the Jefferson Davis Parish Sheriff’s
Office, Louisiana, and Jones County, Mississippi, because the OJP computer
system automatically places a hold on grant funds when a grantee fails to
submit a Financial Status Report. An OJP financial official confirmed the fact
that the grant payment systems were programmed to automatically place a
hold on grant funds when a Financial Status Report is not submitted and that
supplemental grants funds would be included in that hold. When an
automatic hold is in place, the grant payment systems deny a grantee’s request
to draw down funds. However, a previous OIG audit found that the payment
systems do not always function as intended. 4 According to the audit report, for
31 percent of the OJP grants audited, grantees were able to draw down funds
during periods for which a current Financial Status Report had not been
submitted.

        3 A hold is a restriction placed on subsequent awards until the grantee complies with

reporting requirements. BJA is responsible for notifying OJP’s Office of the Comptroller to
place a hold on funds.

       4 Department of Justice, Office of the Inspector General, Audit Report Number 05-18,
Administration of Department of Justice Grants Awarded to Native American and Alaska Native
Tribal Governments, March 2005.


                                               4
      As of December 2, 2005, only seven grantees had drawn down funds
from the supplemental disaster relief awards totaling $1,633,896. These
drawdowns are approximately 33 percent of the $5,000,003 awarded (see
Attachment V). BJA does not maintain supporting documentation for grantee
expenditures and the provisions of the supplemental grants allow a grantee to
draw down funds in a lump sum prior to incurring grant-related expenses.
Therefore, we confirmed that funds were drawn down, but could not determine
how the funds were used.


CONCLUSION

      While BJA was proactive in providing additional grant funding to
grantees in the Hurricane Katrina affected areas, it has no assurance that
funding is going to the areas of greatest need. In addition, our testing
indicated that holds were not always placed on funds awarded to grantees who
did not submit Financial Status Reports for previous grants. As a result, there
was no “red flag” to alert BJA personnel that a potential grantee failed to
comply with the requirements for previous grants.


RECOMMENDATION

      For future disaster relief funding, we recommend that OJP perform an
assessment of potential grantees to ensure that funding is provided to those
with the greatest need. This assessment should also consider the grantee’s
history in administering prior grants.


                                  ♦    ♦    ♦


      The overall status of the report is closed. We previously furnished you
with copies of the draft report and requested written comments. Your
comments are attached and were considered in finalizing the report.

      If you have any questions or would like to meet to discuss the audit,
please contact me on (202) 514-3435 or Robert J. Kaufman, Regional Audit
Manager, Dallas Regional Audit Office, on (214) 655-5000.

Attachments (6)




                                       5
cc: Paul J. McNulty
    Acting Deputy Attorney General

   Robert D. McCallum, Jr.
   Associate Attorney General

   Domingo S. Herraiz
   Director
   Bureau of Justice Assistance

   LeToya A. Johnson
   Audit Liaison
   Office of Justice Programs

   Richard P. Theis
   DOJ Audit Liaison

   Matt Jadacki
   Assistant Inspector General
     for Katrina Operations
   Department of Homeland Security




                                     6
                                 DISASTER RELIEF GRANTS ISSUED BY THE OFFICE OF JUSTICE PROGRAMS
   Grant No.      Award Date                                            Legal Name                               State     Project Title    Award Amount
 2005DJBX0699      9/2/2005     Louisiana Commission on Law Enforcement and Administration of Criminal Justice    LA     Hurricane Relief         $593,059
 2005DJBX1445      9/2/2005     City of New Orleans                                                               LA     Hurricane Relief         $536,106
 2005DJBX0088      9/2/2005     Jefferson Parish Sheriff's Office                                                 LA     Hurricane Relief         $526,041
 2005DJBX0527      9/2/2005     Mobile County Commission                                                          AL     Hurricane Relief         $464,501
 2005DJBX0365      9/2/2005     Mississippi Department of Public Safety                                           MS     Hurricane Relief         $312,895
 2005DJBX0813      9/2/2005     Lafayette City-Parish Consolidated Government                                     LA     Hurricane Relief         $226,967
 2005DJBX0253      9/6/2005     City of Gulfport                                                                  MS     Hurricane Relief         $223,123
 2005DJBX0627      9/2/2005     St. Tammany Parish Sheriff's Office                                               LA     Hurricane Relief         $220,007
 2005DJBX1442      9/2/2005     Calcasieu Parish Sheriff's Department                                             LA     Hurricane Relief         $214,504
 2005DJBX0242      9/2/2005     Baldwin County Commission                                                         AL     Hurricane Relief         $181,730
 2005DJBX0366      9/2/2005     Alabama Department of Economic And Community Affairs                              AL     Hurricane Relief         $168,070
 2005DJBX0710      9/2/2005     Tangipahoa Parish Sheriff's Department                                            LA     Hurricane Relief         $121,955
 2005DJBX1438      9/2/2005     Jackson County Board of Supervisors                                               MS     Hurricane Relief         $109,320
 2005DJBX0084      9/2/2005     Lafourche Parish Sheriff                                                          LA     Hurricane Relief         $106,877
 2005DJBX1045      9/2/2005     Ascension Parish Sheriff's Office                                                 LA     Hurricane Relief         $101,086
 2005DJBX0555      9/2/2005     City of Hattiesburg                                                               MS     Hurricane Relief          $86,364
 2005LBBX0003      9/2/2005     Iberia Parish Sheriff's Department                                                LA     Hurricane Relief          $86,341
 2005DJBX1545      9/2/2005     County of Jones, State of Mississippi                                             MS     Hurricane Relief          $76,150
 2005DJBX0187      9/2/2005     St. Bernard Parish                                                                LA     Hurricane Relief          $76,025
 2005LBBX0004      9/2/2005     Terrebonne Parish Consolidated Government                                         LA     Hurricane Relief          $61,769
 2005LBBX0002      9/2/2005     Terrebonne Parish Sheriff's Office                                                LA     Hurricane Relief          $61,769
 2005DJBX0078      9/2/2005     St. Mary Parish Sheriff's Office                                                  LA     Hurricane Relief          $60,525
 2005DJBX0322      9/2/2005     St. Charles Parish Sheriff                                                        LA     Hurricane Relief          $58,071
 2005DJBX0193      9/2/2005     St. John the Baptist Parish Sheriff's Office                                      LA     Hurricane Relief          $52,862
 2005DJBX0438      9/2/2005     City of Bogalusa                                                                  LA     Hurricane Relief          $51,215
 2005DJBX0177      9/2/2005     Iberville Parish Sheriff's Office                                                 LA     Hurricane Relief          $37,688
 2005DJBX0922      9/2/2005     Jefferson Davis Sheriff's Office                                                  LA     Hurricane Relief          $36,224
 2005DJBX0691      9/2/2005     City of Pascagoula                                                                MS     Hurricane Relief          $30,000
 2005DJBX0229      9/2/2005     City of Slidell                                                                   LA     Hurricane Relief          $27,656
 2005DJBX0523      9/2/2005     West Baton Rouge Sheriff's Office                                                 LA     Hurricane Relief          $25,375
 2005DJBX0206      9/2/2005     St. James Parish Sheriff's Office                                                 LA     Hurricane Relief          $24,524




                                                                                                                                                             ATTACHMENT I
 2005LBBX1000      9/2/2005     Covington County Sheriff's Office                                                 MS     Hurricane Relief          $23,455
 2005DJBX1730      9/2/2005     City of Moss Point                                                                MS     Hurricane Relief          $17,749
                                                                           TOTAL                                                                $5,000,003
Source: Bureau of Justice Assistance
                                             DISASTER RELIEF GRANTS - OIG JUDGMENTAL SAMPLE
      Grant No.    Award Date                                           Legal Name                                     State    Project Title     Award Amount
 1 2005DJBX0699 9/2/2005        Louisiana Commission on Law Enforcement and Administration of Criminal Justice           LA Hurricane Relief           $593,059
 2 2005DJBX1445 9/2/2005        City of New Orleans                                                                      LA Hurricane Relief           $536,106
 3 2005DJBX0088 9/2/2005        Jefferson Parish Sheriff's Office                                                        LA Hurricane Relief           $526,041
 4 2005DJBX0527 9/2/2005        Mobile County Commission                                                                 AL Hurricane Relief           $464,501
 5 2005DJBX0365 9/2/2005        Mississippi Department of Public Safety                                                  MS Hurricane Relief           $312,895
 6 2005DJBX0627 9/2/2005        St. Tammany Parish Sheriff's Office                                                      LA Hurricane Relief           $220,007
 7 2005DJBX0366 9/2/2005        Alabama Department of Economic And Community Affairs                                     AL Hurricane Relief           $168,070
 8 2005DJBX0084 9/2/2005        Lafourche Parish Sheriff                                                                 LA Hurricane Relief           $106,877
 9 2005LBBX0003 9/2/2005        Iberia Parish Sheriff's Department                                                       LA Hurricane Relief            $86,341
10 2005LBBX0004 9/2/2005        Terrebonne Parish Consolidated Government                                                LA Hurricane Relief            $61,769
11 2005DJBX0322 9/2/2005        St. Charles Parish Sheriff                                                               LA Hurricane Relief            $58,071
12 2005DJBX0177 9/2/2005        Iberville Parish Sheriff's Office                                                        LA Hurricane Relief            $37,688
13 2005DJBX0229 9/2/2005        City of Slidell                                                                          LA Hurricane Relief            $27,656
14 2005DJBX0523 9/2/2005        West Baton Rouge Sheriff's Office                                                        LA Hurricane Relief            $25,375
15 2005DJBX0206 9/2/2005        St. James Parish Sheriff's Office                                                        LA Hurricane Relief            $24,524
16 2005LBBX1000 9/2/2005        Covington County Sheriff's Office                                                        MS Hurricane Relief            $23,455
17 2005DJBX1730 9/2/2005        City of Moss Point                                                                       MS Hurricane Relief            $17,749
                                                                          TOTAL                                                                      $3,290,184
Source: OIG developed sample created from data provided in Appendix I




                                                                                                                                                                  ATTACHMENT II
                                                                                                                            Total Award Amount       $5,000,003
                                                                                       Percent of Total Awards Tested ($3,290,184 / $5,000,003)            66%
                                                    ATTACHMENT III

                    NEW HURRICANE KATRINA AWARDS
                           Name                    Amount
 Iberia Parish Sheriff’s Department, LA                $86,341
 Terrebonne Parish Consolidated Government, LA          61,769
 Terrebonne Parish Sheriff’s Office, LA                 61,769
 Covington County Sheriff’s Office, MS                  23,455
Source: Bureau of Justice Assistance
                                                             ATTACHMENT IV

             GRANTEE LLEBG/DISCRETIONARY
             MONITORING REPORTS PROVIDED
                               Name
 St. Charles Parish Sheriff, LA
 Alabama Department of Economic and Community Affairs
 Mobile County Commission, AL
 Louisiana Commission of Law Enforcement and Administration of
 Criminal Justice
 Iberia Parish Sheriff’s Department, LA
 Mississippi Department of Public Safety
Source: Bureau of Justice Assistance
                                                                   ATTACHMENT V

              DRAWDOWN ACTIVITY FOR GRANTEES AS OF 12/2/2005
                  Name                           Award Amount     Drawdown Amount
Louisiana Commission on Law Enforcement               $593,059        $593,059
and Administration of Criminal Justice
Mobile County Commission, AL                           464,501         414,441
St. Tammany Parish Sheriff’s Office, LA                220,007         220,007
Alabama Department of Economic and                     168,070         168,070
Community Affairs
Tangipahoa Parish Sheriff’s Department, LA*            121,955         121,955
City of Hattiesburg, LA*                                86,364         86,364
Iberia Parish Sheriff’s Department, LA                  86,341         30,000
                     TOTAL                            1,740,297       1,633,896
Source: Bureau of Justice Assistance
* Grantees were not included in the OIG Judgmental Sample.
ATTACHMENT VI
ATTACHMENT VI
